Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the Florida Agency for Health Care Administration, A-06-01-00002
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the
Medicaid Prescription Drug Program of the Florida Agency for Health Care Administration," A-06-01-00002
February 25, 2002
Complete
Text of Report is available in PDF format (1.47 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Most States use average wholesale price (AWP) minus a percentage discount,
which varies by State, as a basis for reimbursing pharmacies for drug prescriptions.  Therefore,
the objective of this review was to develop for the Florida Medicaid program
an estimate of the discount below AWP at which pharmacies purchase brand name
and generic drugs.  Our estimate of the overall discount below AWP for
the invoice prices we reviewed was 22.88 percent for brand name drugs and 68.19
percent for generic drugs.  Our national estimates, included in reports
we previously issued, were 21.84 percent and 65.93 percent, respectively.  We
recommended that the Florida Agency for Health Care Administration consider
the results of our review as a factor in any future changes to pharmacy reimbursement
for Medicaid drugs.